No. 20-853
IN THE

Supreme Court of the United States
ANDREW HIRSHFELD, PERFORMING THE FUNCTIONS AND DUTIES OF
THE UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
FALL LINE PATENTS, LLC, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

I, Thomas G. Sprankling, a member of the bar of this Court, hereby certify that,
on this 27th day of January, 2021, all parties required to be served have been served
copies of the Respondent Apple Inc.’s Response in support of the Petition for Writ of
Certiorari in this matter by overnight courier to the addresses on the attached service
list.

THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
Thomas.Sprankling@wilmerhale.com

SERVICE LIST
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

JOHN C. O’QUINN
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
john.oquinn@kirkland.com

STEPHEN Y. CHOW
HSUANYEH LAW GROUP, PC
MATTHEW J. ANTONELLI
11 Beacon Street
ANTONELLI, HARRINGTON & THOMPSON, LLP Boston, MA 02108
4306 Yoakum Blvd., Suite 450
(617) 886-9088
stephenychow@rcn.com
Houston, TX 77006
(713) 581-3000
BRIAN W. NOLAN
matt@ahtlawfirm.com
MAYER BROWN, LLP
1221 Avenue of the Americas
JAMES R. BARNEY
FINNEGAN, HENDERSON, FARABOW,
New York, NY 10020
GARRETT & DUNNER, LLP
(212) 506-2500
901 New York Ave., NW
bnolan@mayerbrown.com
Washington, DC 20001
JAMES ETHERIDGE
(202) 408-4412
ETHERIDGE LAW GROUP
james. barney@finnegan.com
2600 E Southlake Blvd., Suite 120-324
JEREMY S. PITCOCK
Southlake, TX 76092
THE PITCOCK LAW GROUP
(817) 470-7249
1501 Broadway
Jim@EtheridgeLaw.com
12th Floor
New York, NY 10036
(646) 571-2237
jpitcock@pitcocklawgroup.com
EDWARD M. CANNON
KNOBBE, MARTENS, OLSON & BEAR, LLP
2040 Main Street
14th Floor
Irvine, CA 92614
(949) 760-0404
ted.cannon@knobbe.com

2

